-#>>

No.19-6

IN THE
SUPREME COURT OF TIE UNITED STATES
DECEh®ER TERM 2019
----..-------------------.------.----.--------------------------

STATE 0F NEW YORK,
Petitioner,
V.

JAHMARLEY JONES,
Respondent.
.-----------------------.----------------------------------.---

IN FORMA PAUPERIS MOTION PURSUANT TO
RESPONSE TO PETITION FOR A WRIT OF

CERTIORARI TO TEE SUPREME COURT OF
TEE

STATE OF NEW YORK APPELLATE

DIVISION, SECOND DEPARTMENT

To the Honorat)le Scott S. Harris, Clerk of the United States Supreme Court

1. I am an attorney admitted to practice in the State of New York and
before this Court.

2. Pursuant to a November 3, 2016 decision and order of the Supreme

Court of the State of New York, Appellate Division, Second Department, I was
assigned under Article 722 of the New York County Law to represent Jahmarley
Jones (respondent herein) on his appeal to that Court. A copy of that decision and

order is annexed hereto.
3.

I have continued to represent Jones as his assigned counsel

throughout the proceedings in this case.
4.

On June 25, 2019, the petitioner filed a petition for a writ of

certiorari challenging the decision of the Appellate Division, Second Department
which reversed Jones's conviction.

5.InaletterdatedAugust27,2019,thisCourtrequestedthataresponse

to the petition for a writ of certiorari be filed.

6. Accompanying the instant motion is my response to the petition for

a writ of certiorari.
7.Joneslacksasourceofincomeormeanstoremuneratecounselorpay
for the expenses associated with this proceeding.

WREREFORE, counsel respectfully requests that the respondent be
allowed to proceed before this Court in forma pauperis in connection with the
proceedings in this case.

Respectfully submitted,

i a r2 Uc7`
RANDALL D. UNGER
Counsel of Record for Respondent
125-10 Queens Boulevard, Suite 5
Kew Gardens, New York 1 1415
(718) 614-6496

randalldunger@yahoo.com

Ear-

Sxprem€ ®uurt af rtye St&tf uf Nf ur nlnrd
Appfllate ZEliuigirm: ®£m«a aruili[ise( Dfpqrtmfttt
M220077

V/
RANDALL T. ENG, P.J.
WILLIAM F. MASTRO
REINALDO E. RIVERA
MARK C. DILLON
RUTH C. BALKIN, JJ.

2016-02147

The People, etc., respondent,
v Jahmarley Jones, appellant.

DECISION & ORDER ON MOTION
Motion for Poor Person Relief
and to Assign Counsel

(Ind. No.1659/14)

Motion by the appellant pro se for leave to prosecute an appeal from a judgment of
the Supreme Court, Queens County, rendered February 18, 2016, as a poor person, and for the
assigrment of counsel.

Uponthepapersfiledinsupportofthemotionandthepapersfiledinrelationthereto,
itis

ORDERED that the motion is granted; and it is further,
ORDEREDthattheappealwillbeheardontheoriginalpapers(includingacertified
transcript of the proceedings, if any) and on the appellant' s and the respondent's briefs; the parties
are directed to file nine copies of their respective briefs and to serve one copy on each other; and it
is further,

ORDERED that the stenographer of the trial court is directed promptly to make,
certify, and file two transcripts of the prc>ceedings of any pretrial hearings, of the plea of guilty or
of the trial, and of the imposition of sentence in this action, except for those minutes previously
transcribed and certified (5'ee 22 NYCRR 671.9); and it is further,

ORDERED that in the event that the case was tried to a conclusion before ajury, the
stenographer shall also make, certify, and file two transcripts of the minutes of proceedings during
jury selection; and it is further,

ORDERED that the Clerk of the trial court shall furnish one certified transcript of
eachoftheproceedingssetforthabovetotheappellant'scounsel,withoutcharge(seecpL460.70);
assigned counsel is directed to turn over those transcripts to the respondent when counsel serves the
appellant' s brief on the respondent; and it is further,

ORDERED that in the event the stenographer has already prepared a copy of any of
November 3, 2016

Page 1.

PEOPLE v JONES, JAHMARLEY

theminutesforacodefendant,thentheClerkofthetrialcoultisdirectedtoreproduceacopythereof
for assigned counsel; and it is further,

ORDEREDthatuponserviceofacopyofthisdecisionandorderonmotionuponit,
the Department of Probation is hereby authorized and directed to provide assigned counsel with a
copyofthepresentencerepoltpreparedinconnectionwiththeappellant'ssentencing,includingthe
recommendationsheetandanypriorreportsontheappellantwhichareincorporatedinorreferred
to in the report, and to provide additional copies to this Court upon demand; and it is furfuer,
ORDERED that in the event an issue as to the legality, propriety, or excessiveness
ofthesentenceisraisedonappeal,orifassignedcounselcitesorreliesupontheprobationrepori
inabrieformotioninanyotherway,counselshaHprovideacompletecopyofsuchreportandany
attachmentstotheCourtandtheDistrictAttomey'sofficepriortothefilingofsuchbrieformotion;
and it is further,

ORDERED that pursuant to County Law § 722 the following named attorney is
assigned as counsel to prosecute the appeal:

Randall D. Unger, Esq.
42-40 Bell Boulevard, Suite 302
Bayside, NY 11361

and it is further,

ORDERED that the appellant's time to perfect the appeal is enlarged; assigned
counsel shall prosecute the appeal expeditiously in accordance with this Court's rules (see 22
NYCRR 670.1, eJ Jeg.) and written directions; and it is froher,

ORDERED that in the event the file has been sealed, it is hereby unsealed for the
limitedpurposeofallowingassignedcounselorhisorherrepresentativeaccesstotherecordforthe
puxposeofpreparingtheappeal;suchaccessshallincludepermissiontocopythepapersinsofaras
they pertain to the appellant; and it is further,

ORDEREDthatassignedcounselisdirectedtoserveacopyofthisdecisionandorder
on motion upon the clerk of the court from which the appeal is taken.

ENG, P.J., MASTRO, RIVERA, DILLON and BALKIN, JJ., concur.

ENTER

drpnd~:rfurfe
Clerk of the Court
Appellant 's Address..
16-A-1485

Coxsackie Corr. Fac.
P.O. Box 999
Coxsackie, NY 12051 -0999

November 3 , 2016

PEOPLE v JONES, JAHMARLEY

Page 2.

